<html>
<title> - [H.A.S.C. No. 114-108] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 114-108]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

                    THE MARINE CORPS 2017 OPERATIONS

                     AND MAINTENANCE BUDGET REQUEST

                         AND READINESS POSTURE

                               __________

                              HEARING HELD
                             MARCH 3, 2016


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                ___________
                                
                                
                         U.S. GOVERNMENT PUBLISHING OFFICE
99-652                          WASHINGTON : 2016                         
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b6c7b644b687e787f636e677b2568646625">[email&#160;protected]</a>  
                                     
  


                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
ELISE M. STEFANIK, New York, Vice    JOAQUIN CASTRO, Texas
    Chair                            TAMMY DUCKWORTH, Illinois
FRANK A. LoBIONDO, New Jersey        SCOTT H. PETERS, California
MIKE ROGERS, Alabama                 TULSI GABBARD, Hawaii
CHRISTOPHER P. GIBSON, New York      BETO O'ROURKE, Texas
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
BRAD R. WENSTRUP, Ohio
SAM GRAVES, Missouri
STEVE RUSSELL, Oklahoma
                Andrew Warren, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                        Katherine Rember, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Paxton, Gen John M., Jr., USMC, Assistant Commandant of the 
  Marine Corps; LtGen Glenn M. Walters, USMC, Deputy Commandant 
  for Programs and Resources, U.S. Marine Corps; and MajGen 
  Vincent A. Coglianese, USMC, Assistant Deputy Commandant for 
  Installations and Logistics (Plans), U.S. Marine Corps.........     1

                                APPENDIX

Prepared Statements:

    Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
      Member, Subcommittee on Readiness..........................    22
    Paxton, Gen John M., Jr......................................    23
    Wittman, Hon. Robert J., a Representative from Virginia, 
      Chairman, Subcommittee on Readiness........................    21

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
  THE MARINE CORPS 2017 OPERATIONS AND MAINTENANCE BUDGET REQUEST AND 
                           READINESS POSTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                           Washington, DC, Thursday, March 3, 2016.
    The subcommittee met, pursuant to call, at 10:50 a.m., in 
room 2118, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.
    Mr. Wittman. I call to order the House Committee on Armed 
Services Subcommittee on Readiness.
    In the interest of time we will dispense with our opening 
statements, and General Paxton, we will go directly to you. I 
understand that you will give the opening statements for the 
panel and then we will proceed into questions unless there is 
anything additional that you might have.
    [The prepared statements of Mr. Wittman and Ms. Bordallo 
can be found in the Appendix beginning on page 21.]

     STATEMENT OF GEN JOHN M. PAXTON, JR., USMC, ASSISTANT 
 COMMANDANT OF THE MARINE CORPS; LTGEN GLENN M. WALTERS, USMC, 
   DEPUTY COMMANDANT FOR PROGRAMS AND RESOURCES, U.S. MARINE 
CORPS; AND MAJGEN VINCENT A. COGLIANESE, USMC, ASSISTANT DEPUTY 
COMMANDANT FOR INSTALLATIONS AND LOGISTICS (PLANS), U.S. MARINE 
                             CORPS

    General Paxton. No. Thank you, Chairman. I appreciate the 
opportunity to appear before the subcommittee again, and 
General Walters, from our Deputy Commandant for Program and 
Resources and Major General Coglianese from our Assistant 
Deputy Commandant for Installations and Logistics.
    So it is great to be with the committee again, sir. Thank 
you.
    Chairman Wittman, Ranking Member Bordallo, and 
distinguished members of the Readiness Subcommittee, thank you 
for the opportunity to appear today and to report on the 
readiness of your United States Marine Corps.
    The Marine Corps is committed to remaining our Nation's 
ready force, a force that is truly capable of responding to a 
crisis anywhere around the globe and at a moment's notice. It 
has been so for the last 240 years since Captain Samuel 
Nicholas led his Marines ashore in Nassau on this very day in 
1776.
    Last year the Congress was kind enough to reiterate the 
expectations of the 82nd Congress that the Marine Corps 
continue to serve as our Nation's expeditionary force in 
readiness, and to be most ready when the Nation is least ready. 
I thank you for that reaffirmation and assure you that your 
Marine Corps is meeting today and will continue to meet 
tomorrow your rightly high expectations.
    Marines continue to be in demand from all our combatant 
commanders around the world. They are forward deployed, engaged 
on land and sea, and ready for crisis response in Africa, 
Europe, the Middle East, and the Pacific.
    Last year Marines conducted air strikes in Iraq, in Syria. 
They enabled Georgian forces who were operating in Afghanistan, 
and they conducted lifesaving disaster response operations in 
Nepal, among many other missions, all while remaining poised to 
respond at a moment's notice.
    Maintaining that ``fight tonight'' warfighting relevance 
across our five pillars of readiness, and I believe you all 
have the handout there that we will refer to during the course 
of the testimony on the five pillars of readiness. That is what 
requires a careful balancing, rather.
    We must constantly balance between our operational 
readiness and our institutional readiness, between capability 
and capacity, between current operations and future operations, 
between steady state and between surge readiness, as well as 
between low-end and high-end operations and training.
    All of this as we face increasing and varied demands from 
the COCOMs [combatant commands]. In our challenging fiscal 
environment, we are struggling to maintain all of those 
balances.
    As the Commandant said in his posture statement earlier 
this week, the Marine Corps is no longer in a healthy position 
to generate current readiness and reset all of our equipment 
while simultaneously sustaining our facilities and modernizing 
to ensure our future readiness.
    We have continued to provide the COCOMs with operationally 
ready forces, prepared to execute all assigned missions. In 
some cases these units are only fully trained to just those 
assigned missions and not to the full spectrum of possible 
operations.
    In addition, this operational readiness is generated at the 
cost of our wider institutional readiness. This year I must 
again report that approximately half of our non-deployed units 
are suffering from some degree of personnel, equipment, or 
training shortfalls.
    We continue to prioritize modernization for our most urgent 
areas, primarily the replacement of aging aircraft and aging 
amphibious assault vehicles and we defer other needs.
    Our installations continue to be built by areas for today's 
readiness, putting the hard-earned gains from the past decade 
and indeed much that the committee and the Congress has helped 
us with at risk. While our deployed forces continue to provide 
the capabilities demanded by the COCOMs, our capacity to do so 
over time and in multiple locations remains strained.
    Our deployment-to-dwell time ratio continues to exceed the 
rate that we consider sustainable in the long term. The strains 
on our personnel and our equipment are showing in many areas, 
particularly in aviation, in communications, and in 
intelligence.
    We have already been forced to reduce the capacity 
available to the COCOMs by reducing the number of aircraft 
assigned to several of our aviation squadrons, and we expect to 
continue those reductions throughout 2017.
    While we are able to maintain steady-state operations 
today, to include the ever-expanding Phase Zero operations as 
we shape theaters and work on theater security cooperation and 
building partnership capacity, our ability to surge for the 
crisis of the war fight becomes increasingly challenged.
    Though your Marine Corps remains able to meet all the 
requirements of the defense strategy to conduct high-end 
operations in a major contingency response, we may not be able 
to do so with a level of training for all our units or along 
the timelines that would minimize our costs in damaged 
equipment and in casualties.
    These challenges in providing and balancing provide the 
context for my message today. Your Marine Corps remains ready 
to answer the Nation's call, but with no margin for error on 
multiple missions, in which failure is not an option. To win in 
today's world, we have to move quickly, we have to move 
decisively, and we have to move with overwhelming force.
    So Chairman, I thank you for the opportunity for all of us 
to appear before the committee. I ask that you accept the 
written statement for the record, and prepared to answer your 
questions, sir.
    [The prepared statement of General Paxton can be found in 
the Appendix on page 23.]
    Mr. Wittman. Very good. General Paxton, thank you so much. 
Lieutenant General Walters, Major General Coglianese, thank you 
so much for joining us today, and thanks so much for your 
leadership. We understand it is a challenging time with all the 
threats we see around the world and they change and morph each 
and every day. And we want to make sure that we are here 
listening intently to what the Marine Corps' needs are to 
regenerate and maintain that readiness.
    As you spoke of, the readiness recovery effort is based on 
projecting the timeframes from a foundation of being able to 
reestablish that readiness. Within that framework, give us your 
projections about when the Marine Corps will attain on that 
path, setting the conditions for readiness and then moving from 
there, when it will attain full-spectrum readiness? And on what 
percentage do you think on that path you will meet as you get, 
hopefully, to that full-spectrum readiness?
    And then let us know, too, on the way obviously there will 
be some risk that you will assume, and you spoke about that 
risk. What core functions will you assume that risk in? Because 
what we want to make sure is that, you know, we are 
understanding where that risk might rest and help where we can 
as we put together this year's NDAA [National Defense 
Authorization Act].
    So if you will do that, and of course you could put that in 
the context of the fiscal year 2017 Navy budget and what it 
provides for you as you are setting those conditions for 
readiness recovery.
    General Paxton. Thank you, Chairman. I understand, and I 
will also try and defer to my colleagues so you get a little 
different sense in terms of how the budget was indeed balanced 
and work with the Department of the Navy and then also where 
some of the exemplars are for particular sets of equipment, 
sir.
    So if I may, sir, if I understood then there were two 
questions. The first part of your question was ``when.''
    Mr. Wittman. When.
    General Paxton. So we will continue as we have in years 
past to make sure that the forces that are deployed today are 
100 percent trained, 100 percent ready. Within the time we are 
allotted we can also guarantee that the next-to-deploy forces 
will be 100 percent trained, 100 percent certified, 100 percent 
ready.
    The issue is for the ones beyond there. And in addition, as 
you heard me say in the oral statement, sir, that we have 
several example communities where we have had to go back and in 
order to reset equipment and generate future readiness, we have 
had to reduce the density of units that are all deployed.
    Perhaps the most stressed community and the examples that I 
would submit to the subcommittee are aviation. We have several 
type model series where the aircraft is aging. We continue to 
fly them a lot, particularly our F-18s and AV-8s on the fixed-
wing side. We have gotten rid of the CH-46 community, sir.
    But as we brought on the V-22 community we brought them on 
early. They are two to three times the speed, two to three 
times the range, two to three times the lift. They have proven 
themselves in Iraq and Afghanistan, but they are in high demand 
by the COCOMs.
    So we look to train new pilots in the V-22, and we need to 
bring new aircraft onboard. In addition, we need to bring on 
the sustainment capability for them.
    So right now we only have 14 of our 18 projected V-22 
squadrons. We struggle sometimes to get all the parts out there 
and then to keep the pilots trained.
    So the answer to your first question, sir, in terms of 
when, we do not believe that we are going to have full-spectrum 
aviation readiness until at least 2020. And that is presuming 
that the budget continues as it is and that we can align 
dollars to maintain hours to fly pilots and then the actual 
people in the pipeline, sir. So that is the answer to your 
first question, sir.
    The second question on pacing items and examples of things 
where we take risk, several years ago if I was over to testify 
I would have said that our combat engineers, our EOD [explosive 
ordnance disposal] capability, some of our unmanned systems 
were the pacing items for us.
    Right now we find that some of the pacing items are 
actually our intelligence battalions, our radio signals 
battalions, our intelligence battalions, because those units 
are now not only forward deployed with our Marine Expeditionary 
Units [MEUs], but we have generated two Special Purpose Marine 
Air-Ground Task Forces [MAGTFs], one that supports AFRICOM 
[U.S. Africa Command] and one that supports CENTCOM [U.S. 
Central Command].
    Each of those is about 2,200 Marines. In the case of the 
CENTCOM one, they are operating over about 1,200 to 1,800 miles 
in six different countries. And they are very busy. Well, in 
order to make those units work they need a command element that 
can integrate and plan and deliver air-ground logistics. So it 
is the intelligence and the communications that go there.
    That comes at the expense of the units in the States that 
provide the people and provide the equipment. So those units 
are all under a 1:2 dep-to-dwell [deployment to dwell] now, and 
we watch the tempo. And then when they come back, Chairman, 
they are also reach-back capabilities. So units forward may be 
coming back to them for target analysis, for planning and 
things like that.
    So in terms of the first one, sir, if you don't mind, I 
would defer to General Walters----
    Mr. Wittman. Sure.
    General Paxton [continuing]. To see if he has anything else 
for us.
    Mr. Wittman. Yes. Yes.
    General Walters. Sir, you asked what do we take risk in?
    Mr. Wittman. General Walters, if I can, if I can get you to 
put your microphone on that would be great. Thanks.
    General Walters. Sorry, sir. I went silent and I didn't 
press the button.
    Mr. Wittman. No problem.
    [Laughter.]
    General Walters. You asked about where we took risk in the 
2017 budget. I have some examples for you, basically in three 
areas. Number one, we couldn't take any risk in end strength. 
We can't do that, and in fact, we can make an argument that 
dep-to-dwell is directly related to our end strength and why 
that might not be sufficient to do what we need to do and meet 
the timelines that the Assistant Commandant laid out.
    We took half of our JLTV [Joint Light Tactical Vehicle] 
production to balance the 2017 column. We are only at 74 
percent in FSRM [Facilities, Sustainment, Restoration, and 
Modernization], and we lost 44 percent of our MILCON [Military 
Construction]. Our O&M [Operations and Modernization] funds in 
2017 are by my estimation somewhere about $450 million to $460 
million less than what we would call our minimum base to do 
what we need to do for in 2017. Hopefully that gives you some 
context of what we are talking about. And a lot of these are 
reflected in our unfunded priority list that we sent over.
    Mr. Wittman. Yes. That sounds a lot like to me the term we 
hear of tiered readiness, which----
    General Walters. Yes, sir.
    Mr. Wittman [continuing]. Yes.
    General Walters. We don't do tiered readiness.
    Mr. Wittman. I know. I know.
    General Walters. But we have readiness issues----
    Mr. Wittman. Yes.
    General Walters [continuing]. As we face fiscal challenges.
    Mr. Wittman. That is right. Well, and when you have to 
manage risk you almost end up by default tiering the readiness 
capability----
    General Walters. Yes, sir.
    Mr. Wittman [continuing]. Across the concentric----
    General Walters. Yes, sir. And you park risk on places that 
make you suck your teeth when you put the budget together.
    Mr. Wittman. Yes. Thank you, gentlemen.
    I will go down to Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman, and good 
morning Generals.
    General Paxton, my question is for you. You mentioned that 
the Marine Corps has struggled to maintain the balance between 
current and future readiness often being required to defer the 
latter and favor the former. So what steps can Congress take to 
allow you to budget adequately to meet your readiness 
requirements?
    General Paxton. Thank you, Ranking Member Bordallo. The 
Congress has been very generous in terms of working with us to 
answer specific needs. Given the overall reduction in the total 
obligational authority, since PB [President's budget] 2012, 
which is the baseline that we use to measure, the issue for us 
becomes the challenge of, within the Department of Defense 
[DOD], future readiness versus current readiness.
    So we fully understand and support both the President and 
the SecDef [Secretary of Defense] and their move for the Third 
Offset Strategy. And we know that there are things we must do 
in terms of nuclear capability, cyber capability, space 
capability, whether it is buying new or replacing old. But 
those elements are increasingly costly as the threat of 
adversaries around the world makes great inroads on us.
    So invariably, Congresswoman, we think that the future 
expenses there are often taken at the result of end strength 
and current capability. So we struggle within that balance to 
support what we know needs to be done nationally for the 
defense strategy, but to maintain current bench readiness. So 
we watch our end strength very carefully, and we also watch our 
ability to get beyond just today's fight, ma'am.
    So the money is there. Other things that pressurize us 
within the Department of Navy [DON], our shipmates and 
colleagues in the Navy have been very good. We work with them 
on aviation capability and on amphibious shipping capability. 
But the DON budget is pressurized by the Ohio replacement 
program. So there are some big bills and some must-pay bills 
nationally that continue to pressurize the day-to-day ops 
[operations] today, ma'am.
    Ms. Bordallo. So I guess what you are saying, General, then 
is that we have to continue to be innovative, right, and work 
with what we have?
    General Paxton. Well, ma'am, we certainly understand that, 
but again, within the budget constraints that we know we have 
to operate under, at some point we believe that capacity has 
and depth on the bench has a capability all its own.
    Ms. Bordallo. Good. This is either for you or General 
Walters. What are the impacts for Marines and their families as 
well as operational readiness of asking Marines to average 
closer to a 1:2 deployments rather than your target of 1:3? 
Whichever one.
    General Paxton. Yes, ma'am, I will start but then I will 
defer to both my colleagues because General Walters was a 
commanding general of the 2nd Marine Aviation Wing and they 
were over in Afghanistan 3 years ago, so he can tell you about 
that. And General Coglianese was the commanding general of the 
1st Marine Logistics Group out on the West Coast.
    So the challenge for us obviously is Marines join to fight. 
Marines join to travel around the world. So we don't have a 
problem with first-term Marines. Officer or enlisted, regular, 
I mean, Active Duty or Reserve Component. They come in to do 
what Marines do, which is go around the world and fight.
    But as we continue the deployment schedule, it sometimes 
does become onerous. There are education requirements you have 
for the individual Marine. There is schooling, not only a 
professional military education within their occupational 
specialties, but just tactical and technical training as well, 
and we need to get them out to independent duty. We always need 
recruiters and drill instructors. So how we manage the career 
expectations that the institution needs and that the individual 
expects with a 1:2 dep-to-dwell becomes a challenge.
    And then as the force ages, right now the average Marine is 
just a little over 25 years old, most of the force is on their 
first term, and 75 percent of the force is forward deployed. So 
we are very--all the services are busy, but against even that 
metric we are the youngest and the most forward deployed. So as 
the force ages it becomes harder.
    General.
    Ms. Bordallo. General Walters.
    General Walters. Yes, thank you, ma'am. The other aspect I 
would add to the Assistant Commandant's statement, is 1:2, 1:3, 
what does it really mean? 1:3 gives you time and the time to 
train. And when you get back from a deployment if you are gone 
for 6 months and you are going to be back for a year, the first 
month is basically leave and resetting your equipment. The last 
6 months is training if you do it right. And you have got to 
train for the next deployment.
    That doesn't leave you a whole lot of time to reset the 
force both in equipment and personnel. So if you want to 
achieve readiness you have to provide time for these Marines to 
come back, reset themselves and then train themselves back up 
and be a whole unit. And it is really the people and the 
equipment together and the training opportunity and time for 
them to get ready for their next deployment.
    Ms. Bordallo. Yes.
    General Walters. That is where we see stress. If you 
provided more time, then they would ready for the full range of 
military operations one and two. One of the only ways to do 
that is quit deploying them as much as they are now or having a 
bigger force. Those are the two levers you can pull to get to a 
1:3, which is the optimum. Thank you, ma'am.
    Ms. Bordallo. And did you want to hear from----
    General Coglianese [continuing]. Covered, m'aam.
    Ms. Bordallo. He said it all. All right. General Walters, 
the Marine Corps is an important element of the U.S. Asia-
Pacific rebalance. And we will be conducting a RIMPAC [Rim of 
the Pacific] exercise this summer. Now, how do you anticipate 
that these deployments will build readiness and contribute to 
regional security policy in the Pacific? General.
    General Walters. Yes, ma'am. The RIMPAC operation I think 
we are also using as a vehicle to test out an alternative, as 
you say, to become more innovative with our organizations. The 
RIMPAC operation is going to have that component in there. Our 
posture in the Pacific, as you are well aware, that we are 
committed to 22,500 Marines west of the dateline. We have a 
plan for that.
    And I think as we proceed down there the fiscal pressures 
on exercises such as RIMPAC are going to be more and more 
telling even this year at our current funding level in this 
fiscal year.
    And we are already getting inputs of reducing the scope and 
scale of a lot of our exercises. RIMPAC is one of those ones 
that we will try and preserve at its full capability and 
capacity, ma'am.
    Ms. Bordallo. Thank you. I have another question here for 
General Coglianese. We have heard that the construction 
schedule for the FRF [Futenma Replacement Facility] has been 
delayed by 2 years, and Congressman, the Chairman, Mr. Wittman 
and I were just in Okinawa. We heard about this. And it is my 
hope that the Government of Japan can quickly resolve the 
remaining issues so that we can get the construction of the FRF 
and the Okinawa consolidated plan back on schedule.
    It is important that we continue to sustain our 
infrastructure and operational capabilities at Futenma. So to 
that end, can you please describe some of the key 
infrastructure investments you intend to make in fiscal year 
2017 to ensure Futenma continues to meet the operational 
requirements of the Marine Corps?
    General Coglianese. Yes, ma'am, thank you. Thank you for 
that question. The whole rebalancing has many pieces to it, and 
as far as Okinawa, as you know, there are political 
ramifications, legal suits from the local Okinawans, with Japan 
itself, and the project has been delayed.
    But we are, I think, on course still with our DPRI [Defense 
Policy Review Initiative] plan of moving forces around from 
Okinawa to Guam. We see it as a delay but not stopping anything 
we are doing.
    Ms. Bordallo. Yes.
    General Coglianese. As far as reinvesting in Futenma, we 
are not planning on doing any major reinvesting in Futenma that 
I know of because of the alternate site that we are going to.
    Ms. Bordallo. I think what I want to hear is that this will 
not affect the move to Guam. Our construction and so forth is 
ongoing, and I think this is what concerns my constituents back 
home, that there is another delay in this move. So would you 
say then that is--General Paxton.
    General Paxton. I was going to say, Ranking Member, that we 
are still on track. I don't think it is delaying. As you know, 
the three MILCON projects that we had were slid 1 year. We do 
have a power plant being built, and also the Japanese 
Government----
    Ms. Bordallo. Is this money from----
    General Paxton [continuing]. Is also doing, as you know, 
MILCON projects on Guam as we speak. So although it is tied 
together, we see the plan still as on track for Guam. Just 
delayed on the MILCON, but, you know, we still think we are 
going to be IOC [initial operating capacity] and as we 
predicted.
    Ms. Bordallo. Well, you know, just a few years ago we found 
out that ultimately Guam was delinked from this Futenma 
situation, so----
    General Paxton. So, ma'am, Ranking Member, it is a 
distributed laydown. So when we look at the pieces we realize 
there are some connections between what happens on Okinawa with 
the FRF and up at Henoko area, what happens in Iwakuni, what 
happens in Guam, what happens in Darwin, and what happens in 
Hawaii.
    So we try to keep all those pieces linked and they have to 
stay linked in terms of the environmental study, the monies 
available for MILCON, the ability to train people. The risk 
that we have is we never want to have a Marine stationed 
somewhere where he or she is not able to train or not 
deployable.
    But the master plan in terms of movement to Guam and have 
some of the III MEF [Marine Expeditionary Force] and 3rd MARDIV 
[Marine Division] units actually relocate from Okinawa to Guam 
is still an integral piece of the distributed laydown in the 
Pacific, ma'am.
    Ms. Bordallo. Thank you. Thank you, General.
    And I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Bordallo.
    We will now go to Mr. Scott.
    Mr. Scott. Thank you. Thank you, Mr. Chairman. Gentlemen, 
thank you for being here. And I know the last couple of years 
you have had to manage through the sequester shutdowns, 
continuing resolutions [CRs]. If you get an appropriation 
measure, it is at the last minute. And you have got a big job 
to do, and the fact of the matter is you don't know what your 
budget is going to be or your appropriation is going to be for 
next year.
    And I appreciate your courtesy, General Paxton, but ``thank 
you'' might should be replaced with ``thank you, sir, may I 
have another?'' I think you have been treated very unfairly by 
us in the last several years, especially with all of the things 
that we expect you to do.
    As you know, the Marines you have got distributed ground 
forces, maintain forward presence in a lot of areas. You are 
responsible for establishing local relationships and responding 
rapidly to a tremendous number of things that can happen 
anywhere in the world.
    You are not investing in the unmanned aerial systems, the 
Group 5s, the MQ-9s that have the extended loiter time. And I 
just wonder when we talk about the close air support mission, 
how much additional risk is being taken by not investing in 
more MQ-9s? And is that an area where we need to do something 
then to get more of those for you, or additional close air 
support weapons?
    General Paxton. Thank you, Congressman. I will start and 
then defer again to General Walters as the wing commander and 
as the program. But the short answer to your question is 
absolutely we are taking risk in unmanned aerial systems, 
regardless of whether it is Group 1, 2, 3, 4, or 5. We would 
like to have more. That is cutting-edge technology. There is 
much to do in terms of innovation to see how we can integrate 
an unmanned system with a manned system.
    The Commandant was just out on the West Coast last week to 
take a look at future options for that integration. The 
challenge for us continues to be the pacing item of our manned 
systems that we are absolutely essential to moving Marines 
around the battlefield, to delivering ordnance on targets, and 
to sustaining the fight. So once again it is that delicate 
tradeoff between the current fight and the future fight.
    We are committed to unmanned systems. We have at least two 
that are programs of record here that we are working with the 
Department of the Navy to continue to procure. And we know that 
is an area that we would have to get, as the Commandant said, 
smarter, better, faster, cheaper in.
    General Walters. Thank you, Representative Scott. To 
emphasize a couple of things the ACMC [Assistant Commandant of 
the Marine Corps] has said, we have Class 1, 2 and 3 and we 
have a Class 3 program in the RQ-21. The Commandant has tasked 
us to go back and look at a capabilities analysis of that. And 
what do we want? Or what do we need?
    The trick is always when you talk Class 4 and Class 5 is 
Class 4 is something we could probably afford if we take some 
risks elsewhere and we will get some benefit from that. Class 5 
is kind of a UAV [unmanned aerial vehicle] that is do you need 
it in the Marine Corps or do you need access to it in joint? We 
fully support--I mean, when in Afghanistan we used MQ-9s, we 
used the Predators, the Reapers, everything was over my AO 
[area of operations].
    Obviously if we are in a joint force then we need to have 
the joint capability available to us, but we are taking a very 
serious look at it and seeing what we can afford. I think the 
Commandant would want to propose buying as much as we could to 
put in the MAGTF because we are sometimes by ourselves in 
different places in the world. But this is I guess I could say 
it is a real big debate point right now, what can we afford and 
how quick can we get it?
    Mr. Scott. But as long as you have it in the joint force 
you feel like you are----
    General Walters. Well, that is an option, but there are 
scenarios where if the joint force is not available then we 
have to look very seriously at what capability we bring in the 
Marine Corps, and we need to pursue that.
    Mr. Scott. Thank you for your service.
    Mr. Wittman. Thank you, Mr. Scott.
    We will now go to Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and it is good to see 
you all here. We have been very, very fortunate, Mr. Chairman, 
that we had great leadership at Camp Pendleton in San Diego, 
and I was delighted to have an opportunity to work particularly 
with General Paxton and General Coglianese. So thank you again 
for being here and for your dedication to our country.
    One of the discussions that we have had over the last few 
weeks particularly is the Russian aggression in the Baltics. 
And I wondered if you could respond to the European Reassurance 
Initiative [ERI] and how that might be impacted by the 
situation of prepositioning our stocks in Norway.
    How are we doing with the progress of that in shifting the 
focus from transportation to heavier equipment in the area? 
Where do you think that is and what do you need?
    I guess I would also say, because I think we hear from our 
constituents all the time, and we know the military will do 
anything that we ask of them, particularly the Marines. I think 
a lot of people are often thinking of the Marines when they 
think about that and they want us to keep them safe here at 
home.
    Often you hear some criticism, if you will, that we have 
too many troops in the European theater. So could you put this 
together so people understand how important it is?
    General Paxton. Thank you, Congresswoman Davis. I will 
start and then defer to General Coglianese, who can talk a 
little bit actually about the prepositioning. We are keenly 
aware of the emergence of another potential ``fight tonight'' 
area in terms of Russian aggression through Europe. As you and 
the members of the committee well remember, in days of old the 
Marines had a mission on the northern and southern flank of the 
European AOR [area of responsibility].
    With our Special Purpose MAGTF that works for the Africa 
commander, the previous AFRICOM and EUCOM [U.S. European 
Command] commanders were able to broker a unit and force-
sharing agreement so that forces could shop relatively quickly 
and seamlessly back and forth between the two of them. So we 
have a large component of that Special Purpose MAGTF and they 
are titled the Black Sea Rotation Force.
    So for several years now they have been doing bilateral and 
multilateral engagements and exercises, primarily on the 
southern flank and working out of two particular countries 
there where we have some basing and station arrangements.
    That Special Purpose MAGTF still is dependent on mobility 
to get to where they need to go, so they need V-22s and KC-130s 
and things that are already in short supply for everyone else.
    So we do have forces over there. We do depend on the ERI to 
help them out. We don't have enough density there, and we don't 
have enough mobility there.
    As we speak here today, we are recovering Marines from 
exercise Cold Response in Norway where we work with Norwegian 
and United Kingdom allies to train up there. And this is really 
the first time since pre-9/11 that we have had a large 
footprint north of the Arctic Circle doing cold weather 
operations.
    So we are slowly reestablishing environmental capability 
and fighting capability in those two areas.
    The issue for us remains getting in, the power projection 
piece, and then sustaining. So we are back to the discussion we 
have about the adequacy and the availability of our amphibious 
fleet to get us to those two theaters because they are remote 
and you have great sea lines of communication to get there. And 
then we are dependent on maritime prepositioning or cave 
prepositioning for supplies.
    As you know, Congresswoman, we got rid of one of the 
MPSRONs [maritime prepositioning ship squadrons]. It was 
largely a fiscally driven decision several years ago. But we 
only have two maritime prepositioning squadrons now, both in 
the Pacific AOR. We would like to have that one back in Europe. 
That would be a big boon. In the absence of that we continue to 
use the caves in Norway. And I will let General Coglianese talk 
about what those caves mean to us and what is and is not there, 
ma'am.
    General Coglianese. Yes, ma'am. Thank you for the question. 
As you know, that MPSRON squadron was in the Mediterranean, 
too, so it was located in the European area. There is a lot of 
emphasis on the caves right now, our prepositioning. We have 
recently put more things in it, surrounded it. It is basically 
a battalion landing team mechanized with a command element, 
assets and some logistics assets and some aviation assets or 
for ground aviation logistics.
    There are tanks, AAVs [Amphibious Assault Vehicles], and, 
you know, the Norwegians are very good partners and it has been 
a great relationship since 1986 when we started the program. 
But it is the emphasis on that program, I think, has been 
spotlighted and it has increased in recent times with the 
tension in Europe.
    Mrs. Davis. Okay. Thank you.
    General Coglianese. I can go on to tell you more about what 
is in there, but like you say, right now the exercise that is 
going right now has been very successful in drawing that 
equipment out. And once again we will reconstitute it, put it 
back in with our partners in Norwegian and use it for future 
exercises.
    Mrs. Davis. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mrs. Davis. Appreciate it.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman, and I want to thank 
the generals for being here today. Really do appreciate 
everything that you do.
    You know, I am concerned when you start hearing about the 
dwell time. You know, the Marine Corps really had their act 
together, I think, in regards to dwell time versus, you know, I 
have got three sons in the Army, you know, 15 months in 
Afghanistan isn't exactly the best outcome.
    And so I start to worry when you hear dwell times slipping, 
particularly when the Marine Corps, I believe, did a great job. 
And, you know, it really does help, you know, that your troops 
but also their families that are, you know, left behind to have 
to make it.
    At what point, you know, we cut the Marine Corps end 
strength, at what point do we get to where we--I know we will 
fight if we have to, but at some point in time I think we have 
to start making decisions about where we fight because what we 
don't want to do is break the Marine Corps or the Army for that 
matter.
    So is there a breaking point that we, hopefully, have not 
come close to? But is there such a thing as a breaking point?
    General Paxton. So thank you, Congressman Nugent. I am sure 
there is a breaking point. We don't always know where it is. We 
try to predict it. We try to predict the breaking point by 
readiness or by risk or by fiscal or by people. What we always 
are mindful of is we don't want to find that breaking point in 
the rearview mirror and realize that we actually culminated 
some time ago and we can't do what we do.
    To your question, sir, as I said in my opening statement, 
we are going to be ready with every unit tonight. And we are 
going to be ready with the next one that comes. So when the 
military plans, I believe, sir, that they plan against the most 
dangerous enemy course of action as opposed to the most likely 
enemy course of action.
    So when the geographic combatant commanders come before the 
committee and they say here is what could happen in my AOR, 
those risks that any of those six geographic combatant 
commanders pose then become risks that are transferred 
institutionally to the four services. And then we worry about 
not that we can fight, but can we do a two at one? Can we do a 
delay and a deny? Can we do a win and a deny?
    And more importantly in today's world where adversaries 
have increasing capability and more command and control and 
they are developing better generation aircraft and a deeper 
bench for shipping, the issue is can they project their power 
and will faster than we can respond?
    So our concern is not the quality of the soldier, sailor, 
airman, Marine and what we are going to do. It is can we get 
enough of them to the point where we are at risk----
    Mr. Nugent. Do you have capacity?
    General Paxton. So that is exactly it, sir.
    Mr. Nugent. It's the same issue. It is about capacity. You 
know, the will and readiness, you know, the will to fight I 
don't question any Marine's will to fight or any soldier's will 
to fight.
    But, you know, in the Army at one point in time, you know, 
I think they were staffed up to 110 percent so if they fielded 
they would be with, you know, 100 percent personnel ready to 
go.
    And they are struggling right now between, you know, folks 
that for whatever reason, you know, medical, which is a big 
one. How is the Marine Corps doing in regards to, you know, 
your strength of your units? I am not talking about the ones 
deployed necessarily, but, you know, the ones in reserve?
    General Paxton. So our manpower situation, sir, is good 
right now. Our recruiting is good. Our retention is good. Our 
schooling is good and the availability of the individual Marine 
and consequently the availability of the unit is good overall.
    The issue, as General Walters alluded to earlier, is the 
timing about getting the right number of the right grade, the 
right MOS [military occupational specialty], the right skill 
set to the right unit in time that they can do training to work 
up. And this is what happens when we go from a 1:3 to a 1:2.
    So when you make that big jump what you sacrifice is that 
you are going to be ready just in time and you are going to be 
ready just for the assigned mission.
    You don't have the latitude or the luxury to plan for other 
missions that could pop up and you don't have the latitude to 
take a little bit longer and delay your deployment. So 
everything is a little bit of self-induced crisis.
    General Walters. No, sir. It is the dep-to-dwell and the 
end strength and how much you use it. On a daily basis we use 
up our readiness. The only real lever we can provide is time to 
train. All the metrics we see on the quality of our people, the 
money we put into those programs seems to be working.
    It is what does the country want us to do? If the country 
wants us to do more than we are doing now, then we could report 
to you that we might be closer to that breaking point.
    I think our dep-to-dwell now is about at as high an 
operational tempo as we can stand. We have seen this in the 
past in the war in Afghanistan and Iraq. We saw the crisis in 
certain MOSs. And when we built the force back up we targeted 
certain battalions, Cobra squadrons, 53 squadrons, and we 
targeted those just because that is what we could build, not 
because that was the only demand signal. But that is what we 
could accomplish.
    Mr. Nugent. Thank you.
    I thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Nugent. Appreciate that.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. Bells are ringing--
--
    Mr. Wittman. Yes.
    Mr. Courtney [continuing]. So I will be real quick and 
thank you for your testimony. I think it is important to not 
let go unnoticed this morning on page 13 of your testimony, the 
Marines, again, are the first service to hit initial operating 
capability for the F-35, which is really I think a new sort of 
milestone in, you know, in aviation history, not just for this 
country but for the world. So again, congratulations to your 
team for doing that.
    Can you talk a little bit about, you know, the plan which 
is to actually, you know, send a squadron out to Japan in 2017? 
And what does that mean, I mean, in terms of, you know, what 
are they going to do and what is it replacing? And because 
obviously I think this is quite significant, and again, you 
deserve a lot of credit.
    General Paxton. Thank you, Congressman Courtney, and again, 
mindful of the time here so we will go quick. The F-35 did meet 
IOC last summer. We have a squadron that is full up in Yuma 
right now and we are still on timeline to move that squadron to 
Iwakuni. The F-35 represents to us not only the V/STOL 
[vertical/short take-off and landing] capability that we need 
to project power, assure from ship-to-shore in an expeditionary 
operation, but it is also a fifth generation aircraft which 
means it has enhanced navigation, communications, and 
particularly EW [electronic warfare] and cyber capability.
    So the intent on moving it to Iwakuni, where we are 
grateful for the support for the facilities out there, is that 
we can actually move from IOC to FOC [full operational 
capability] and test it in an operational environment, 
sometimes working with other dissimilar aircraft whether it is 
U.S. or allies and actually see how good and how well we have 
designed and prepared the aircraft.
    As is always the case, if you put aircraft in the hands of 
soldiers, sailors, airmen, and Marines they will help you 
figure out whether you did the designing and the production 
right or whether it has capabilities you didn't anticipate you 
could do.
    And General Walters.
    General Walters. No, sir, and it is going to the Pacific, 
and if you look at what the Navy is doing with their carrier 
laydown, the fifth generation carrier, first fifth generation 
carrier for the Navy, is going to be on the West Coast. That 
has caused us to change our plans and follow the carrier out to 
the West Coast. So we are going to have to find some money to 
put the capability out there in Miramar.
    Mr. Courtney. Thank you.
    Mr. Wittman. Thank you, Mr. Courtney, and we appreciate 
that. We have votes, about 6 minutes left in the votes, so it 
won't allow us to be able to get there and get back in time. 
Mr. Gallego didn't have a chance to have his question asked, 
but I will make sure we take his questions, get them entered 
for the record.
    And gentlemen, thank you so much. Thanks for the great job 
that you do on behalf of our Nation and thanks for the great 
job your Marines do for our Nation. We deeply appreciate all of 
your valuable information you provided for us today to make 
sure we give the proper direction in this year's NDAA to 
provide for the resources for the Marine Corps to continue on 
the path to restore readiness.
    So folks, thanks again, and we are adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]
     
=======================================================================

                           A P P E N D I X

                             March 3, 2016

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 3, 2016

=======================================================================

      
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
